1

.

IN THE SUPREME COURT OF THE UNITED STATES
No. 19-143
Henry Eugene Gossage v. Merit Systems Protection Board
PETITION FOR REHEARING

CERTIFICATE OF COMPLIANCE WITH RULE 44 and 33.1(g)

I, Henry E. Gossage, pro se veteran, hereby certify that, according to the word-count
tool in Microsoft Word, the Rehearing Brief of Petitioner consists of 6 pages and 1212
words, single line with 3 point spacing, Century Schoolbook, 12 point, including
footnotes and excluding the sections enumerated by Rule 33.1(d).
The July 20, 2018 MSPB Response to the Federal Circuit in Appendix C, A-4 is
corrected to Century Schoolbook 12-point, single line, with 3 point spacing.
The Rehearing Brief therefore complies with Rule 33.1(g).

Henry Eugene Gossage
Veteran Pro Se

RECEIVED
OCT 25 2019

